April 11, 2014

The Honorable Sylvia M. Burwell
Director, Office of Management and Budget
725 17th Street, NW
Washington, DC 20503

Dear Ms. Burwell:

Pursuant to the President’s July 2010 mandate on implementing the Improper Payments
Elimination and Recovery Act (IPERA) (Public Law 111-204), the Office of Inspector General
(OIG), Corporation for National and Community Service (Corporation or CNCS) has reviewed
the improper payments information as reported in the Corporation’s Agency Financial Report
(AFR). We conclude that the Corporation has not complied with IPERA, applicable Executive
Orders, and the Office of Management and Budget (OMB) guidance.

Background

This is the third consecutive year in which OIG has questioned the validity of the Corporation’s
IPERA analysis. In Fiscal Year (FY) 2011, the Corporation’s AFR reported that none of its
programs was susceptible to significant improper payments and reported improper payments in
the AmeriCorps Volunteers in Service to America (VISTA) program of only $2.14 and projected
improper payments of $3,947, results that were on their face unreasonable. The Corporation
reached these results because it failed to examine whether the Corporation’s expenditures were
used for their intended purpose, a key IPERA criterion.

In its FY 2012 AFR, the Corporation ranked five programs in order of risk and said that in FY
2013 it would complete a final detailed statistical analysis of the payments within each of them,
use the results to make a new determination of susceptibility and determine whether recapture
audits would be cost-effective in programs or activities that were not susceptible to significant
improper payments. It would report all of the results in the FY 2013 AFR. Reviewing this work,
OIG noted that the Corporation was continuing to understate the prevalence of improper
payments and had not accurately assessed the susceptibility of at least some of its programs.
The testing methodology ignored whether grantees made proper use of approximately
$750,000,000 disbursed annually by the Corporation in the form of grants. In response, the
Corporation promised that a new review of the susceptibility of its programs in FY 2013,
beginning with the AmeriCorps State and National program, which the Corporation identified as
the most likely of its programs to have improper payments of more than $10 million or 2.5
percent of program outlays.1        The Corporation declared its intention to conduct “a
comprehensive, statistically-projectable review of costs incurred by [AmeriCorps State and
National] grants to develop a basis on which to assess the level of costs that are improper on
the basis of not conforming to the terms and conditions of CNCS’ awards,” including applicable
cost principles.

1
 This represented a departure from the risk rankings reported in the FY 2012 AFR, which ranked VISTA and the
National Service Trust as riskier than AmeriCorps.
                        1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                           202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov
Corporation’s Incomplete IPERA Analysis and Reporting for FY 2013

The Corporation has never conducted an analysis of the costs incurred by AmeriCorps grantees
across the entire grant portfolio. As reported in the FY 2013 AFR, the Corporation completed
only the preliminary stage of the promised AmeriCorps review. Thus, it has confirmed that the
AmeriCorps program is susceptible to more than $10 million of improper payments per year, but
it cannot reliably estimate how much more. Although the Corporation stated in its FY 2013 AFR
that it used a “statistically-based approach” to reach this conclusion, that approach was not
sufficient to project either the rate or the amount of improper payments made annually by the
AmeriCorps program.

Certain obstacles impeded the efforts of the audit firm contracted by the Corporation to conduct
the improper payment assessments. These impediments included the lack of standardized
general ledger data and document formats from grantees, untimely submission of information
and the level of non-responses or inadequate responses. As result, both the Corporation and
audit firm were unable to reach conclusions or opinions regarding the amount and rate of
improper payments.

The AFR reported that the Corporation was not certain when it would be able to quantify its
improper payments or to develop, implement and evaluate corrective actions. The Corporation
stated in the FY 2013 AFR that it intends to complete its work in FY 2014 and report the results
in its FY 2014 AFR.

The Corporation is thus non-compliant with IPERA, applicable Executive Orders and OMB
guidance. It did not, for example:

      Obtain a statistically valid estimate of the annual amount of improper payments in
       AmeriCorps and publish it in the AFR;
      Develop and implement a plan for reducing those improper payments and report the
       results in the AFR, including annual reduction targets;
      State whether the Corporation has the necessary internal controls, human capital,
       information systems and other infrastructure to reduce improper payments, and, if not,
       identify the additional resources that it requires to do so;
      Describe its accountability measures for meeting improper payments reduction targets
       and establishing and maintaining sufficient internal controls to prevent, detect and
       promptly recover improper payments.

The Corporation provided its FY 2013 improper payment testing and assessment to OIG in
February 2014, two months after the issuance of the FY 2013 AFR. At that time, the
Corporation advised OIG that it had not yet decided how to proceed. In light of this uncertainty
and the Corporation’s clear non-compliance with IPERA in FY 2013, OIG has deferred further
evaluation of the methodology used in the Corporation’s FY 2013 assessment. We will continue
to monitor the status of the Corporation’s improper payment assessments and determine
whether additional evaluation of the FY 2013 efforts would be productive. OIG looks forward to
working with the Corporation to facilitate a complete and reliable assessment of improper
payments, together with effective plans to reduce and recapture the amounts wasted.
